                                            UNCLASSIFIED



             MEMORANDUM REPORT NUMBER IT-A-02-02
                        Streamlined Processes and Better Automation
                           Can Improve Munitions License Reviews

                                                  March 2002



The Department of State (Department) has primary federal responsibility for
reviewing and approving licenses for the export of munitions commodities from the
United States. In the current information age, there are vast opportunities for
applying technology to help streamline and improve the effectiveness of the licens-
ing control process. Given increasing risks to information processing in today’s
environment, ensuring security in the licensing control process is also essential.

    In response to requirements of the National Defense Authorization Act for FY
2000,1 the Office of Inspector General (OIG) conducted a review of automation in
the Department’s munitions export licensing process. Specific objectives of our
review were to (1) evaluate the processes and information systems used by the
Department for reviewing munitions export license applications, including an assess-
ment of systems connectivity with relevant Department bureaus and other federal
agencies, (2) determine whether the licensing systems comply with federal and
Departmental security assurance requirements, and (3) assess whether the Depart-
ment is carrying out ongoing and planned upgrades to the licensing systems in a
cost-effective and efficient manner. The purpose, scope, and methodology for our
review are outlined on page 23.



RESULTS IN BRIEF
The munitions export licensing process is crucial to safeguard the foreign policy and
national security interests of the United States. However, the process as managed by
the Department’s Office of Defense Trade Controls (DTC) is inefficient and unnec-
essarily burdensome on industry and other federal agencies involved in munitions
license controls. OIG found that the process involves extensive use of manual and
paper-based means to transfer information that must be re-keyed into computer
systems by recipient organizations. In addition, the process lacks adequate tracking


1
    Public Law 106-65, Title XIV, Section 1402, 113 Stat. 798 (2000); 22 U.S.C. 2778 nt (2001).


OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   1 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED



       mechanisms from beginning to end, resulting in lost and misplaced applications, as
       well as additional time and effort. In part, these problems have resulted from DTC’s
       internal information technology (IT) infrastructure, which is comprised of multiple
       systems that are independent of one another. DTC’s lack of external connectivity
       further limits its ability to share data electronically with other organizations, such as
       the Department of Defense, also involved in reviewing and approving munitions
       licenses.

            DTC recognizes the need to improve its munitions licensing processes and
       related information systems and is now developing plans to upgrade its IT capabili-
       ties. However, its approach focuses primarily on automating aspects of the existing
       process and does not include effective risk management strategies or adequate
       industry and agency input to help identify and meet requirements. Not revising
       business processes prior to investing in new technology creates the risk of merely
       automating inefficient ways of doing business. Failure to coordinate effectively with
       external export licensing organizations grappling with similar IT improvement issues
       results in duplication of effort.

           Recent DTC initiatives are good first steps to improving automated support for
       the munitions licensing process; however, more needs to be done for the efforts to
       be effective. Building upon initiatives currently underway, DTC can broaden its
       efforts to include assessment of the existing munitions licensing process and identifi-
       cation of improvement requirements. Working with industry and other federal
       government organizations involved in the process, DTC can help develop a strategy
       for providing secure, integrated systems and processes to help meet these require-
       ments. DTC has taken tentative steps toward improved collaboration; however,
       sustained interagency effort is necessary to improve automation, integrate, and
       streamline the federal munitions licensing process as a whole.



       BACKGROUND
       Export licensing controls are vital to help protect the national security, foreign policy,
       and nonproliferation interests of the United States. Export licenses are controlled
       through two separate processes for dual-use and munitions, based on the intended
       use of the commodities involved. Dual-use commodities are those goods and
       technologies, such as supercomputers, encryption equipment, and nuclear-related
       items, which have both commercial and military purposes. Munitions commodities
       are services or items, such as firearms, aircraft, radar systems, and ammunitions,
       which are designated for strictly military or defense purposes.


2 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                            UNCLASSIFIED
                                            UNCLASSIFIED



    The Bureau of Export Administration at the Department of Commerce controls
dual-use exports under the authority of the Export Administration Act of 1979, 50
U.S.C. 2401 et seq. (2000), as amended. The Export Administration Regulations, 15
C.F.R. Subchapter C (2001), published by the Bureau, outline export control policies,
procedures for issuing export licenses, and laws and guidelines for enforcing dual-use
exports. Within the Department, two organizations assist Commerce in the dual-use
licensing process, with each reviewing specific types of commodities. The Bureau of
Nonproliferation reviews dual-use license applications for national security and
regional stability concerns. The Bureau of Economic and Business Affairs reviews
dual-use license applications for crime control and foreign policy reasons.

     Within the Department’s Bureau of Political-Military Affairs, DTC controls the
export of munitions under the authority of the Arms Export Control Act, 22 U.S.C.
2751 et seq. (2001). Although the Act authorizes the President to control the export
of items included on the U.S. Munitions List, the President delegated this responsi-
bility to the Secretary of State in 1977 by Executive Order 11958. DTC provides
foreign policy advice to entities involved in manufacturing, exporting, and brokering
defense articles and services. DTC also reviews and approves munitions license
applications in accordance with the International Traffic in Arms Regulations, 22
C.F.R. Subchapter M (2001), which specifies procedures that persons subject to U.S.
jurisdiction must follow in furnishing defense articles or services abroad. DTC has
its own process for reviewing and approving munitions export license applications
in-house, but also forwards many of these applications to other organizations inter-
nal and external to the Department for review.

     Recent reports by organizations such as the Center for Strategic and Interna-
tional Studies2 have expressed concerns over the efficiency of the federal
government’s export licensing control process, characterizing the process as unneces-
sarily complex and cumbersome. In recent years, OIG has had an ongoing role in
evaluating the effectiveness of the Department’s export licensing control processes,
with a specific focus on munitions licensing. For example, in June 1999, OIG
reported that the process for monitoring end-use of munitions export licenses could
be improved by placing more emphasis on selection criteria for end-use monitoring,
overseeing monitoring requests, and ensuring adequate technical expertise at overseas
posts for conducting checks.3 In March 2000, OIG reported that DTC did not
systematically track foreign nationals listed on munitions export licenses.4 OIG

2
  Final Report, Study Group on Enhancing Multilateral Export Controls for US National Secu-
rity, The Henry L. Stimson Center, Center for Strategic and International Studies, Washington,
DC, April 2001.
3
    Export Licensing (99-CI-018).
4
 Department of State Controls Over the Transfer of Militarily Sensitive Technologies to Foreign Nationals from
Countries and Entities of Concern (00-CI-008).

OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   3 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED



       determined that although licensing agreements may have been in place to protect
       against the release of sensitive information to foreign nationals, the risk of unautho-
       rized disclosure persisted.

            More recently, in March 2001, OIG found that DTC’s commodity jurisdiction
       process for determining whether an export is subject to the U.S. Munitions List took
       an extensive amount of time—an average of six and one-half months.5 OIG further
       reported that DTC did not have computer interfaces with other agencies involved in
       the commodity jurisdiction process or a computer database providing history on
       specific types of commodities. OIG recommended that DTC develop commodity
       jurisdiction notification procedures and deadlines and work with the Departments of
       Commerce and Defense to institute a secure, automated system for processing,
       referring, and storing historical export license data.



       OVERVIEW OF THE CURRENT MUNITIONS EXPORT LICENSING
       PROCESS
       The U.S. process for controlling munitions exports involves license application
       review by a number of different Department and other federal organizations. These
       organizations are responsible for ensuring that exports are reviewed in accordance
       with U.S. foreign policy, national security, and nonproliferation objectives. Figure 1
       provides a flow chart of the major steps in the process, which we also discuss in
       further detail below.




       5
           Review of the U.S. Munitions List and the Commodity Jurisdiction Process (01-FP-M-027).




4 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                            UNCLASSIFIED
                                                                     UNCLASSIFIED



   Figure 1: Illustration of the Current Munitions Export Licensing Process

Industry mails or submits hard
 copy of license application to
     DTC with supporting
        documentation                                                                                                          License                       application
                                                         DTC matches                      DTC assigns case
                                                                                                                            application is
                                                      license application                 number to license
             - or -                                                                                                         assigned to a
                                                         with supporting                   application via
                                                                                                                         license officer for                     supporting
 Industry electronically submits                         documentation                        DETRA
                                                                                                                            initial review                     documentation
license application via ELLIE or
   ROBB and mails supporting
         documentation


                                                                                                                                                                                                Return
                                                                            internal or         yes                            License officer        yes                                       without
                                                                                                       need additional                                          clear and          no
                                                                             external                                              reviews                                                      action.
                                                                                                          review?                                              complete?
                                                                              review?                                            application                                                   Applicant
                                                                                                                                                                                              must reapply.

                                                         internal                                              no
                                                          review
                          Regional Bureaus

                                                         external
                                                          review



                                                                                                                                    DTC approves
              Other U.S. Government                                                                                                                               Exporter
                                             Department of Defense                                                                   license and
             Agencies (NASA, Energy)                                                                                                                          receives license
                                                                                                                                   sends hard copy
                                                                                                                                                                 from DTC
                                                                                                                                      to exporter



                                                                                                                                                               Exporter sends
                                                                                                                                   DTC sends data
                                                                                                                                                               shipper's export
                                                                                                                                      on approved
                                                                                                                                                               declaration and
                                                                                                                                    license to U.S.
                   License officer                                                                                                                            copy of license to
                                                 License officer                                                                        Customs
                    receives staff                                                                    yes                                                       U.S. Customs
                                                inputs reviewing              reviewing officers
                   positions from
                                               agency's positions                recommend
                   internal and/or
                                                  into DETRA                      approval?
                 external reviewers
                                                                                                                                                  U.S. Customs
                                                                                                                                                    compiles
                                                                                           no                                                      information
                                                                                                                                                  received from
                                                                                                                                                 DTC and exporter
                                                                            Application held until
                                                                            Licensing Division's
                                                                             weekly meeting to                                                    U.S. Customs               U.S. Customs
                                                                             discuss applicant's                                                 ensures exporter          sends expired or
                                                                             options for appeal                                                  compliance with               exhausted
ELLIE - Electronic License Entry System
                                                                                                                                                 AECA and ITAR             licenses to DTC
ROBB - Remote Online Bulletin Board
DETRA - Defense Trade Application
AECA - Arms Export Control Act
ITAR - International Traffic in Arms Regulations




   Source: U.S. Department of State, Office of Inspector General




   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002                                                                            5 .

                                                                     UNCLASSIFIED
                                            UNCLASSIFIED



         The process begins with industry, which has several options for submitting a
       munitions export license application to DTC:
            •     Hard copy through either mail, courier, or hand-delivery;
            •     Electronically through the Internet using DTC’s Electronic License Entry
                  System; and
            •     Dial-up server to DTC’s Remote Online Bulletin Board.
           When a hard copy or electronic license application is received from industry,
       DTC transfers information from the license request to its Defense Trade Application
       system. This application, developed from a commercially available database system,
       is used for a variety of licensing and export compliance activities, including tracking
       license applications, scanning supporting materials, and querying license approval
       status. Each application is assigned a case number and then distributed to a licensing
       team within the office for review. The licensing officer assigned to the case performs
       an initial review of the application to determine whether it is accurate and complete.
       If the application is not complete or is not properly prepared, it is returned without
       action to the applicant. Complete applications are reviewed and approved by DTC
       without external involvement or referred to other Department or federal organiza-
       tions for additional review. DTC staffs out about one-third of the approximately
       45,000 license applications it receives annually for additional review and comment.

           More than half of the license applications that DTC annually staffs out are sent
       to various bureaus and offices within the Department. These organizations include
            •     the Bureau of Democracy, Human Rights, and Labor;
            •     the Office of Regional Security Arms Transfer Policy;
            •     the Bureau of International Environmental Scientific Affairs; and
            •     the regional bureaus.
       The organizations review the applications for policy, human rights, and environmen-
       tal implications. The bureaus may also refer applications to country desks or other
       offices within the Department for further review.

           External to the Department, the Department of Defense (Defense) plays a
       significant role in conducting national security reviews of munitions export license
       applications. Defense reviews about 14,000 cases of the annual licensing workload
       that DTC sends out for external review. DTC transfers boxes of these cases to the
       Defense Technology Security Administration (DTSA) every day.6 A DTSA em-

       6
         In August 2001, Defense renamed the former Defense Threat Reduction Agency as the De-
       fense Technology Security Administration.


6 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                            UNCLASSIFIED
                                            UNCLASSIFIED



ployee creates an inventory of the license applications using a commercially available
word processing application and places the inventory in a logbook. Cases are then
input to Defense’s Foreign Disclosure and Technical Information System and re-
ferred to licensing officers who determine how further to staff out the cases to
Defense component agencies. After receiving position papers from all of the De-
fense components asked to review a case, DTSA compiles a final Defense position
on a license application. DTSA transmits the final Defense position to DTC elec-
tronically via an unclassified Department server. In some instances, other agencies
such as the Department of Energy (Energy) and the National Aeronautics and Space
Administration (NASA) are also involved in munitions license application reviews,
but to a substantially less extent than Defense.

    DTC staff assistants maintain computerized files on each license application
throughout the internal and external review process. When all positions are received
on a given case, the staff aides enter the reviewers’ positions into the Defense Trade
Application and close the case, transferring it to the responsible licensing officer for
final review and action. If reviewing agencies recommend that DTC deny a license,
the case is held up until a weekly meeting at which it is determined whether an
applicant should be allowed to protest under the Department’s Appeal Review
Process. However, if DTC receives recommendations from all reviewers that a
license application should be approved, and DTC agrees with the recommendations,
DTC issues the license to the exporter.

    At the end of the license review process, DTC coordinates with the U.S. Cus-
toms Service (Customs) to ensure enforcement of approved licenses in accordance
with requirements of the Arms Export Control Act and the International Traffic in
Arms Regulations. DTC sends information on approved licenses to Customs on a
daily basis. At the point of departure, Customs inspectors verify that exporters have
valid licenses before goods are shipped overseas. When a license has expired or been
exhausted, Customs returns the license to the Department in accordance with export
control regulations.



CURRENT MUNITIONS LICENSING PROCESS IS FRAGMENTED
AND INEFFICIENT
The munitions export licensing process discussed above has been in place for de-
cades. The intricate series of checks and balances inherent to the process has sup-
ported the federal government in meeting its objective of authorizing for export only
those military goods and technologies that are not contrary to U.S. interests abroad.


OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   7 .

                                            UNCLASSIFIED
                                            UNCLASSIFIED



       As technology has evolved, DTC and related organizations have independently
       introduced automated systems and other technologies in an unintegrated manner to
       aid in carrying out their individual export licensing responsibilities. However, even
       while the ad hoc application of technology has facilitated export license review in
       certain areas of the process as a whole, it has also contributed to inefficiencies in a
       number of ways. The proliferation of unintegrated systems linked by manual and
       paper-based processes, re-keying of data, inadequate tracking, and a consequent lack
       of timeliness are deficiencies that we identified in the current munitions export
       licensing process. To avoid the information security risks that connectivity poten-
       tially imposes, DTC has chosen to maintain its current IT infrastructure instead of
       moving to a more interoperable environment that supports secure and more efficient
       electronic exchange of data among all participants in the review process.




       Lack of Systems Connectivity

       Office of Management and Budget Circular A-130 requires agencies to develop
       information systems that facilitate interoperability across networks of heterogeneous
       hardware, software, and telecommunications platforms. Currently, however, the
       systems that DTC uses to process munitions export license applications are indepen-
       dent of one another. For example, the Defense Trade Application—DTC’s primary
       licensing system—has no connectivity with either the web-based Electronic License
       Entry System or the dial-up Remote Online Bulletin Board that DTC has provided
       for industry to submit license applications. DTC uses three different servers and
       networks to operate these systems. The Defense Trade Application is also not part
       of the IT infrastructure or connected to any other system internal to the Depart-
       ment. DTC coordination with the Department’s other bureaus and offices is gener-
       ally conducted through manual exchange of licensing data.

           Other federal organizations also have their own unintegrated systems for pro-
       cessing munitions export license applications referred to them by DTC. Specifically,
       at Defense, DTSA has a Foreign Disclosure and Technical Information System for
       processing munitions license applications referred from DTC. Energy uses its
       Proliferation Information Network System to review export license applications.
       The Energy system is classified and does not allow for the direct transmittal of
       license decisions to other federal agencies. The Automated Export System is a joint
       venture between Customs and the Bureau of Census for electronic filing of shippers’
       export declarations and outbound manifests. Though a number of other federal
       agencies use the Automated Export System, DTC currently has no direct link to the



8 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                            UNCLASSIFIED
                                            UNCLASSIFIED



system. This lack of systems connectivity among the various agencies involved in
export licensing contributes to a number of inefficiencies that we identified in the
munitions export licensing process.




Manual and Paper-based Processes

The Paperwork Reduction Act of 1995, 44 U.S.C. 3501 et seq. (2001), requires
agencies to acquire, manage, and use IT to improve mission performance and mini-
mize the information collection burden on the public. However, much of the
munitions licensing process remains largely manual or paper-based. DTC’s coordina-
tion with the various participants in the license review process is characterized by the
exchange of substantial amounts of hard copy information to help compensate for
the lack of systems connectivity. For example,
     • Industry: DTC requires that industry provide an original and eight cop-
     ies of each license application and supporting documentation. Currently, 60
     percent of all license applications are submitted to DTC electronically. The
     remainder are sent through the mail or hand-delivered. Even though applica-
     tions may be electronically submitted, supporting documentation must still
     be provided in hard copy by mail, fax, or courier and matched with the elec-
     tronic submissions—a labor, time, and resource-intensive exercise. Delays
     sometimes occur when exporters do not provide the supporting documenta-
     tion within 30 days of the application as required. DTC staff then must fol-
     low up with telephone calls to locate the additional information.
     • Department of State Bureaus and Offices: All license applications that
     DTC sends to other organizations within the Department for review are
     transmitted by interoffice mail, fax, or hand-delivery. For example, for a
     given case, DTC sends the bureaus a copy of the application and all support-
     ing documentation, including detailed technical data that can range from a
     few sheets to hundreds of pages. Bureau officials indicated that much of
     this information is unnecessary for the types of review that they conduct.
     They generally stated that they require only country names, item descriptions,
     and end-user information to make license determinations. The excess data
     increases the workload of the bureaus that have to forward the paper copies
     to other offices within the Department for review.
     • Defense: Each day a courier delivers to DTSA five copies of each appli-
     cation submitted to DTC, along with supporting documentation. DTSA
     then forwards the applications to various Defense components, such as the
     Military Services or engineering organizations that review over 90 percent of



OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   9 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED



             the cases that DTSA receives. DTSA sorts the applications by technology
             area into nine groups, including electronic warfare, aircraft, and space and
             missile technology. The process could be more efficient if the sorting were
             done electronically. DTC could also reduce costs by transferring data elec-
             tronically, eliminating the need for a courier each day.
             • U.S. Customs: The Proliferation Prevention Enhancement Act of 1999,
             13 U.S.C. 301 (2001), requires that, by March 2002, all exporters will use the
             Automated Export System for filing shipper’s export declarations electroni-
             cally to Customs. To date, over 80 percent of exporters are using this auto-
             mated system, which has helped Customs increase efficiency, reduce the
             amount of paper documents it receives, and improve enforcement capability.
             Currently, Department regulations require exporters to present paper copies
             of shippers’ export declarations at ports of exit. DTC representatives have
             stated that they are working with Customs to modify the Automated Export
             System to meet munitions export regulatory requirements so that filing of
             shipper’s export declarations can be handled electronically.



        Re-keying of Data

        Given the paper-based exchange of data among participating organizations, the same
        license application information has to be input to computer systems multiple times.
        For example, DTC staff must re-key or scan the electronic license applications they
        receive from their stand alone application systems into the Defense Trade Applica-
        tion. DTC also contracts with a third party to enter data from hard copy mail
        applications into an electronic format. The third party contractor e-mails DTC with
        electronic versions of the paper forms.

             Reviewers at Defense and Energy scan or type the data received from DTC into
        their own systems. DTSA officials told us that they have eight export control spe-
        cialists who spend between five and ten minutes entering data into the Foreign
        Disclosure and Technical Information System to create a routine case. The time
        required for data entry increases to more than 30 minutes for agreements. Agree-
        ments are submitted in letter format rather than via standard application forms.
        Many of the agreements contain a great deal of legal terminology, making them
        more difficult and time-consuming to review. The number of agreements submitted
        has been increasing every year. Currently, 50 percent of the total license applications
        DTSA reviews involve agreements.




10 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED




Lack of Tracking Results in Lost and
Misplaced Applications

Due to the multiple, unintegrated systems involved, there is a lack of transparency
and a greater potential for error in the munitions export licensing process. Currently,
each organization to which DTC refers a license for review has responsibility only
for tracking the license from the time of referral until the time the license is returned
to DTC. There is no single means of tracking throughout the process from initial
submission to final disposition. For example, some bureaus use manual methods to
track applications that they receive from DTC or forward to other offices within the
Department for review. Other bureaus do not track the cases at all. Defense also
has its own system for tracking export license applications, which uses an entirely
different case numbering system from that of the Department.

     Using the Electronic License Entry System, exporters can check the status of
their license applications. For example, via the system, exporters can determine
whether and when DTC received their applications or referred them to other organi-
zations for review. They can also determine when reviews have been completed. A
major limitation, however, is the fact that the system is not available to other bureaus
and offices within the Department or external organizations involved in the reviews.
In addition, exporters stated that the system does not always reflect what happens to
a license after it has left DTC. They said that the system may indicate that a license
application has been sent to a specific organization, although the intended recipient
may have never received the application and may not even be aware of the referral.
Industry and bureau representatives said that exporters tend to make frequent calls
to reviewing organizations to check on the status of applications rather than rely on
DTC’s electronic licensing system. This lack of a tracking mechanism to support the
entire review process results in errors and delays in license application processing.
Additional time is required to process applications when they become lost or mis-
placed after DTC sends them through interoffice mail to other bureaus or offices.
Bureau representatives whom we interviewed stated that that they frequently receive
applications that were intended for other organizations within the Department.
They further stated that they often receive calls from industry or DTC asking about
the status of license applications that they never received.

     A December 2001 U.S. General Accounting Office (GAO) report provides
greater detail about the conditions that cause delays in the licensing process.7 Specifi-
cally, GAO reported that the Department lacks procedures to monitor the flow of
7
 Reengineering Business Processes Can Improve Efficiency of State Department License Reviews, U.S. General
Accounting Office (GAO-02-203, December 2001).

OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   11 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED



        license applications as they move from one stage in the review process to the next.
        As a result, there is no assurance that agencies are conducting timely reviews of
        referred applications, that license application referrals are received when they are sent
        through the mail or by courier, and that applications that are lost or delayed are
        quickly identified. The GAO report concluded that hundreds of munitions applica-
        tions were lost and thousands were delayed in fiscal year 2000 due to the lack of
        procedures and a system to track applications.




        Lack of Timeliness

        Overall, the lack of systems connectivity contributes to a lack of timeliness in the
        munitions export licensing process. As discussed above, voluminous shipments of
        hard copy license information and re-keying of data require added time. Time is also
        consumed by efforts to locate lost or misplaced applications. DTC’s own statistics
        reflect the fact that munitions export license applications sent out for review take
        considerably more time than applications that remain within DTC for processing and
        approval. According to DTC’s web page, the median processing time for cases that
        were sent out for review in September 2001 was 60 days compared to ten days for
        applications that were not sent out during the same period.

            Similarly, a June 2001 GAO report on export license processing times at the
        Department and Commerce concluded that average processing times were similar
        for both agencies.8 The report indicated that in FY 2000, the average processing
        time for munitions applications that DTC did not refer to other organizations was 23
        days, in contrast to an average of 91 days required for applications that the office
        sent out for review. The report further stated that 4,550 applications out of a total
        of 15,512—nearly one-third—of the license applications that DTC sent out for
        review took over 90 days to be completed.

             Further, industry representatives whom we interviewed emphasized that much
        of the responsibility for the license processing delays rests with DTC. The represen-
        tatives agreed that the front-end of the process—the initial processing of license
        applications—needs improvement. For example, representatives said that when they
        submit applications in hard copy format, it sometimes takes days for DTC staff to
        log the applications into the Defense Trade Application. By using DTC’s Electronic

        8
         State and Commerce Department License Review Times Are Similar, U.S. General Accounting Office
        (GAO-01-528, June 2001).




12 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED



License Entry System to check the status of their applications, they determined that
it frequently takes DTC weeks to send license applications out for review. Further,
according to one industry representative, DTC takes seven to ten days to input the
status of a license application into the Electronic License Entry System after De-
fense has completed its review. Another industry representative said that at the end
of the review process it might take several days for DTC to issue a license approval.

   Additionally, in its December 2001 report, GAO stated that the delays within
DTC at the beginning and end of the license review process were due to a lack of
procedures to promote timeliness. Specifically, for FY 2000, GAO found that:

•    586 applications took over two weeks to be referred from a licensing officer to
     another bureau or office within the Department or to a federal agency for
     review;

•    1,861 applications took over two weeks to be referred within DTC from adminis-
     trative personnel to licensing officers for a decision after receipt of recommenda-
     tions from all external reviewing parties; and

•    330 applications took over two weeks to be sent back to the applicant after the
     licensing officer had made a decision to approve, deny, or return the application
     without action.

Of the 2,777 instances identified above, 674 took over four weeks to move from one
point to the next with no substantive review of the applications occurring. GAO
also identified 254 instances where applications were lost in the transfer from the
licensing office to a reviewing office or agency.

    DTC officials generally attributed the increase in munitions license processing
times over the past few years to the loss of several experienced licensing officers, an
increase in the number of license agreement applications that generally require more
review time, and the transfer of licensing jurisdiction over commercial satellites from
Commerce to the Department in March 1999. While we agree that these may be
underlying causes, evidence provided indicates that the lack of systems connectivity
also contributes to the longer processing times.




OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   13 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED




        Systems Integration Would Improve Efficiency
        of the Licensing Process

        Many of the problems identified above could be resolved through improved automa-
        tion and greater systems interoperability to support the munitions export licensing
        process. However, DTC officials oppose connectivity on the basis that there are
        fewer information security risks to unintegrated systems. While not classified, much
        of the munitions license data that DTC manages is proprietary in nature. Unautho-
        rized disclosure or modification could have adverse impact on the industries in-
        volved, the integrity of the export control process, and the national security interests
        of the U.S. as a whole. With such arguments as a basis, however, DTC’s information
        assurance strategy has been one of risk avoidance—remaining isolated to eliminate
        the potential for unauthorized access or malicious intrusion—rather than
        prioritization and risk management. Lacking systems interoperability, DTC has also
        preserved the ability to adapt its system quickly to meet internal objectives without
        having to consider the needs of other external agencies or organizations.

            Even while justified in its concern for the information security of its licensing
        processes, DTC’s strategy of retaining unintegrated systems to avoid rather than
        manage security risks is inappropriate in the current federal IT environment. For
        example, Office of Management and Budget Circular A-130 specifically requires that
        agencies “protect government information commensurate with the risk and magni-
        tude of harm that could result from the loss, misuse, or unauthorized access to or
        modification of such information.” The Department’s Systems Security Program
        Plan reinforces this principle of risk management in information security with the
        admonition that efforts to eliminate all risks facing information systems are not cost-
        effective.

             DTC’s unintegrated systems approach is also outdated in light of the IT capabili-
        ties available in the current information age. Officials we interviewed suggested that
        interoperability could be achieved through institution of a single system accessible to
        all parties involved in the licensing process—from initial application through final
        disposition. Others stated that it could also be accomplished through a “system of
        systems”—a series of standards and integrated systems to support the electronic
        exchange of information among the various Department and other federal organiza-
        tions involved in the munitions export license review process. Further, many have
        suggested a variety of security mechanisms—firewalls, encryption devices, and
        public key infrastructure strategies—that DTC could use to support interoperability
        and protect proprietary export licensing data from unauthorized access and disclo-


14 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED



sure. Whatever the approach, electronic exchange of data would provide greater
capability and efficiency in the munitions licensing process in terms of improved
access, standardization, tracking, accuracy, and timeliness, as well as less duplication
of effort.

     In accordance with Government Paperwork Elimination Act9 requirements,
other federal agencies are increasingly moving to electronic sharing and exchange of
data to accomplish mutual goals and overlapping missions. For example, recent
legislation requires electronic access by the Department and the Immigration and
Naturalization Service to criminal history records of visa applicants seeking admis-
sion to the United States to support counterterrorist activities.10 Further, in the
aftermath of the U.S. embassy bombings in Kenya and Tanzania, the Chief Informa-
tion Officers of ten foreign affairs agencies are working to implement a web-based
collaboration system that will improve information sharing among 40 agencies at
overseas posts. The system is designed to support counterterrorism and protect U.S.
foreign affairs personnel overseas. The Department is funding the prototype and
pilot test of the system, with the Department’s Chief Information Officer acting as
its lead architect. If integrated systems can be established for sharing critical visa
and foreign affairs information, connectivity can also be introduced to support
secure processing of export licensing data that is only proprietary in nature.



DTC AUTOMATION IMPROVEMENT INITIATIVES FALL SHORT
Recognizing the need for improvement, DTC has taken some first steps to automate
the munitions export licensing process better. However, its strategy of automating
certain aspects of the existing process without improving connectivity has only
perpetuated existing inefficiencies. DTC has not assessed the level of information
security needed to migrate to an interoperable systems environment and eliminate
such inefficiencies. Not involving all munitions licensing organizations in its automa-
tion initiatives has also hindered DTC from identifying and addressing process
improvement and systems requirements. Further, by working independently to
modernize IT, DTC is duplicating improvement efforts underway at other agencies
attempting to address similar issues. Recent DTC steps toward better collaboration
are a step in the right direction. However, more could be done to coordinate on a
government-wide basis to streamline the federal munitions export licensing process
as a whole.

9
    44 U.S.C. 3504 (2001)
10
     Public Law 107-56, 115 Stat. 272 (2001)


OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   15 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED




        Automating Existing Processes

        According to the Clinger-Cohen Act, 11 federal agencies are required to analyze and
        revise missions and processes before making significant investments in IT to help
        improve the efficiency and effectiveness of their operations. DTC recently instituted
        a number of initiatives to upgrade IT to support its licensing process. However, the
        approach taken has been primarily one of automating aspects of the existing process
        without first examining the underlying process and considering streamlining alterna-
        tives. DTC initiatives to date have included:
              • Web Site Enhancement: DTC redesigned its web site to make it more
              user-friendly for exporters and ensure compliance with Section 508 of the
              Rehabilitation Act of 1973, 12 as amended, which requires that all federal de-
              partments and agencies, when developing, procuring, maintaining, or using
              IT, ensure access to individuals with disabilities comparable to people with-
              out disabilities.
              • Dedicated Telecommunications Link: DTC is working to increase con-
              nectivity with Defense through installation of a T-1 line—a high speed digital
              connection capable of transmitting data at a rate of approximately 1.544 mil-
              lion bits per second. The T-1 line is to provide capability to send and receive
              very large text files, graphics, sounds, and databases instantaneously, and is
              the fastest means commonly used to connect networks to the Internet. Via
              the T-1 line, Defense will be able to transmit electronically to DTC its final
              dispositions on applications that are referred to them for review. DTC offi-
              cials believe that this line will prove useful for rapid turnaround of cases in-
              volving high-priority munitions needed in the current U.S. counterterrorist
              effort.
              • Contractor IT Assessments and Proposals: DTC hired an independent
              contractor to provide support in documenting and certifying its munitions
              export licensing systems, as well as providing recommendations for improve-
              ment, i.e., database conversions and front-end electronic submission. In ad-
              dition, five contractors have provided strategies for enhancing DTC’s capa-
              bilities. Another contractor is developing an electronic licensing prototype
              for DTC consideration.

        11
           Formerly the Information Technology Management Reform Act, Public Law 104-106, Divi-
        sion E, 110 Stat. 642 (1996).
        12
             Public Law 106-398, 114 Stat. 1654, 29 U.S.C. 701 et seq. (2001)




16 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED



Such automation initiatives are a step in the right direction. However, automating
inefficient business practices is not likely to make them more efficient.
Reengineering and streamlining work processes are essential before automating those
processes and effectively transitioning to new electronic business systems.




Security Concerns Not Fully Addressed

In the current era of increasing threats to information processing operations, DTC
must consider information security risks as it works to upgrade its export licensing
systems. Office of Management and Budget Circular A-130 specifically requires
federal agencies to incorporate security into their IT architectures to ensure effective
support for agency business operations. In April 2001, as part of a Government
Information Security Reform Act review, OIG disseminated a questionnaire to
determine whether Department organizations were meeting IT security require-
ments. At that time, DTC officials reported that they had not completed a system
risk assessment or an up-to-date determination of the level of security required to
protect their Defense Trade Application. DTC officials also indicated that they had
not developed a current IT security plan or tested or evaluated security controls.

    In recent discussions, DTC officials told us about progress they have since made
in addressing some of these information security deficiencies. For example, they
hired a contractor to conduct a preliminary risk assessment as part of their system
documentation effort. The purpose of the assessment was to identify and analyze
vulnerabilities and potential threats to their web site, operational interfaces, and
supporting infrastructure. As a result of the assessment, the contractor recom-
mended a number of security improvements that DTC plans to implement while
modernizing its IT infrastructure. Additionally, DTC officials said that they are
working with the Office of Verification Operations within the Bureau of Verification
to develop an IT security plan, which is scheduled for completion by March 2002.
They are also coordinating with the Department’s Public Key Infrastructure office,
which has assigned an official to assist DTC on information protection issues.
Further, DTC intends to have a contractor test information security controls as new
systems are implemented.

    However, DTC still needs to obtain an up-to-date determination of the level of
security required to protect its export licensing system and the proprietary munitions
license data that it supports. Once such a determination is made, DTC will have to
work with all interested parties to agree on a security approach that can best protect
integrated systems and exchange of licensing data across agencies. This will involve


OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   17 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED



        close coordination to ensure that DTC’s licensing system and security measures are
        compatible with those of industry and other federal agencies involved in the muni-
        tions license review process.




        Participants Not Adequately Involved in
        Defining Requirements

        Department regulations advise that internal organizations use the Managing State
        Projects methodology as a means of planning and implementing IT projects. 13 The
        methodology provides a framework for communicating and coordinating with users
        to define system and user requirements. However, DTC is not using the methodol-
        ogy to structure and control its project direction. In this context, DTC coordination
        with munitions licensing participants on upgrade initiatives has also been limited,
        affecting the office’s ability to identify and address requirements.

            For example, industry has not been adequately consulted to address its concerns
        about the licensing process. In 1992, the Department chartered a Defense Trade
        Advisory Group to provide feedback on munitions export issues and control pro-
        cesses. However, DTC has not used this group effectively to help improve its
        processes. Instead, DTC selects the issues that it wants the group to focus on and
        then does not always follow through to resolve them. As a result, there are still a
        number of industry concerns that DTC needs to address as part of its ongoing IT
        upgrade initiative.

             Specifically, guidance and standards are needed to assist industry in submitting
        license applications to DTC. Industry officials told us that, because it is not clear
        what DTC wants, they submit different information each time they apply for an
        export license. Some exporters reference examples of prior license applications to
        determine what information is needed for new submissions and help ensure that they
        are complete. Officials from one industry organization stated that they developed
        their own manual to assist their employees in submitting license applications to DTC.
        In addition, officials from another industry organization said that they experienced
        difficulty meeting DTC license application requirements because of differences in
        technology. These officials said that they had to use older versions of technology in
        order to submit applications electronically to DTC.

        13
             Foreign Affairs Manual, Chapter 5, Section 620.




18 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED



    DTC is also not addressing problems that regional bureaus are experiencing in
the license review process. For example, officials from the regional bureaus told us
that they require only a limited amount of information to review an export license
application. However, DTC sends them all license data received from an exporter.
This lengthens and complicates the review process when bureau officials have to
search through voluminous amounts of paper to locate information needed to
formulate licensing determinations. DTC officials stated that the bureaus have not
provided them with specific information to identify bureau interests and priorities in
the export license review process. They also stated that they provide detailed expla-
nations of the licensing process to Department bureaus and emphasized the impor-
tance of having adequate staff to review licenses.

    As part of its IT enhancement initiatives, DTC also is not effectively working to
meet the concerns of other federal agencies. For example, Defense officials indi-
cated that they often receive insufficient supporting documentation when DTC
refers license applications to them for review. As a result, Defense officials have to
contact industry for additional information before they can conduct their reviews
and formulate decisions. Additionally, reviewers at Energy stated that DTC could
improve communications and coordination between their organizations. They stated
that DTC officials do not readily respond to inquiries from Energy regarding license
applications and do not send final dispositions to Energy on munitions cases that
they reviewed.




Duplication of Other Agency Efforts

The Clinger-Cohen Act requires that agencies identify IT investments that could
result in shared benefits or costs for other agencies or local governments. Further,
Office of Management and Budget Circular A-130 requires that federal agencies
cooperate on the use of IT to improve productivity, efficiency, and effectiveness and
ensure that planned developments or improvements to existing information systems
do not unnecessarily duplicate other IT initiatives. However, DTC is not taking full
advantage of other federal organizations’ efforts to improve the export licensing
process. A number of these organizations are addressing some of the same issues
that DTC faces, including standardization, tracking, electronic transmission of
supporting documentation, and information security in the export licensing process.
For example:




OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   19 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED



             • Commerce is upgrading its Export Control Automated Support System
             to allow exporters to transmit license applications and supporting documen-
             tation electronically, while securing authentication and transmission of infor-
             mation using public key encryption.
             • Defense is attempting to add technical specifications to its DTSA system
             and allow users to attach notes to license applications electronically sent to
             other Defense components for review.
             • Energy frequently upgrades its Proliferation Information Network Sys-
             tem to improve the automation of its review of dual-use and munitions ex-
             port license applications.
            DTC has the potential to save time, effort, and resources by working jointly with
        other agencies and capitalizing on the benefits of these ongoing improvement
        projects. In January 2001, Defense funded and established a U.S. Export System
        Program Management Office (USXPORTS) as an initial interagency effort to im-
        prove automation to support the export licensing processes. Specifically, the objec-
        tive of the USXPORTS program is to design, develop, and deploy a modern elec-
        tronic export license review system that will be interoperable among Commerce,
        Defense, State and other relevant government agencies. The ultimate goal is to
        support the export control process with easy and timely electronic access to perti-
        nent export data, while protecting national security interests and industry proprietary
        data. However, DTC initially considered the effort an internal Defense initiative and
        did not participate.




        DTC Steps Toward Collaboration

        In recent months, DTC has taken some first steps to coordinate better with organi-
        zations both internal and external to the Department regarding improving automa-
        tion of the export licensing process. For example, DTC has increased communica-
        tions and coordination with the Bureau of Information Resource Management,
        which has responsibility for providing technical support and resources and identify-
        ing opportunities for IT improvement within the Department.

            Externally, DTC officials improved their communications and coordination with
        the USXPORTS program office during the course of our review. For example, they
        recently agreed to commit contractors to work with the USXPORTS program to
        enhance connectivity between DTC and Defense systems.




20 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED



RECOMMENDATIONS
We recommend that the Assistant Secretary for Political-Military Affairs direct the
DTC to coordinate with representatives from industry, the Department’s bureaus
and offices, and other federal organizations involved in the munitions export licens-
ing process to carry out the following as a means of improving the end-to-end
process and supporting technology:

1. Identify and document business requirements, including the need for electronic
data exchange, among all participants involved in the munitions export licensing
process;

2. Reengineer the process to address identified business requirements and promote
efficient and timely license processing;

3. Develop and implement an effective, interoperable IT systems approach to
support electronic data exchange in the reengineered munitions export licensing
process, coordinating with the Department’s Chief Information Officer on a con-
tinuing basis to ensure oversight of the planned IT systems initiatives and invest-
ments and their confluence with federal and Departmental requirements for manag-
ing IT; and

4. Assess information security risks in the reengineered munitions export licensing
process and supporting interoperable systems environment and develop and imple-
ment an information security strategy to manage those risks effectively.




Department Comments and Our Evaluation

We obtained written comments on a draft of this report from the Bureau of Politi-
cal-Military Affairs. In its response, the Bureau stated that it accepted the report’s
recommendations, while noting that several remedial activities have been underway
since the time of OIG’s review. The Bureau identified ongoing steps it believes are
responsive to the report’s findings and consistent with its recommendations. The
Bureau also stated that beyond the recommendations, much of the report’s analysis
will serve as a basis for consideration of still further measures to strengthen the
timeliness and overall efficiency of the munitions export licensing system.




OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   21 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED



            We appreciate the Bureau’s responsiveness and proposed actions to address the
        issues presented in our report. The Bureau requested the continued close involve-
        ment of the OIG as its initiatives proceed in the weeks and months ahead. We
        agreed to provide such assistance on an ongoing basis. We have included the
        Bureau’s comments in their entirety at Appendix A.




22 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                            UNCLASSIFIED



PURPOSE, SCOPE AND METHODOLOGY
The National Defense Authorization Act (the Act) for FY 2000 requires the Inspec-
tors General of Commerce, Defense, Energy, and State, in consultation with the
Director of the Central Intelligence Agency and the Director of the Federal Bureau
of Investigation, to evaluate and report annually, from FY 2000-07, on U.S. policies
and procedures for the export of technologies and technical information to coun-
tries and entities of concern. In response to requirements of the Act, this year the
Department’s OIG conducted a review of automation in the munitions export
licensing process. Specific objectives of our review were to (1) evaluate the pro-
cesses and information systems used by the Department for reviewing munitions
export license applications, including an assessment of systems connectivity with
other relevant bureaus in the Department, as well as with other federal agencies, (2)
determine whether the licensing systems comply with federal and Departmental
security assurance requirements, and (3) assess whether ongoing and planned up-
grades to the licensing systems are being carried out in a cost-effective and efficient
manner.

    To meet these objectives we first researched laws and federal guidance to identify
applicable criteria for managing and ensuring security of information technology.
We then met with managers and licensing officers in the Department’s Office of
Defense Trade Controls to determine whether they are meeting these criteria in
managing and upgrading their systems and processes to support the munitions
export licensing process. Representatives from selected industry organizations told
us how they interact with DTC at the front end of the process to apply for export
licenses. Officials from various bureaus and offices within the Department and
representatives from the Defense Technology Security Administration told us about
their processes and systems for reviewing licenses referred to them from DTC.
Further, Customs officials at the back end of the process told us about their systems,
procedures, and work with DTC to enforce approved licenses.

     Further, we attended presentations at Defense, Energy, Commerce, and Customs
to learn about issues they are grappling with and initiatives they have underway to
improve IT and streamline portions of the export licensing process. Officials within
the Department’s Bureau of Nonproliferation also told us about their Tracker system
for electronic submission and tracking of foreign exporters’ license applications. In
addition, we met with representatives of the USXPORTS program office at Defense
to discuss their approach to developing an integrated export licensing system for the
entire U.S. government. Officials in all of these organizations discussed with us their
efforts to coordinate with DTC on their automation initiatives.



OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   23 .

                                            UNCLASSIFIED
                                             UNCLASSIFIED



            Internal to the Department, we interviewed budget officials in the Bureau of
        Political-Military Affairs to learn about their role in funding and overseeing DTC’s IT
        investments. Verification officials in the Bureau of Verification and Compliance told
        us about measures that they are taking to ensure that DTC is complying with infor-
        mation security requirements. Further, we met with officials within the Bureau of
        Information Resource Management to determine their coordination with and over-
        sight of DTC’s information and technology management operations. Finally, we met
        with representatives from GAO to discuss their review comparing the export licens-
        ing processes for dual-use and munitions licenses and their follow-up review focusing
        on DTC processes.

            We conducted our review from May 2001 to December 2001 at the Department
        in Washington D.C. We conducted our review within the context of an overarching
        interagency OIG effort to assess export licensing controls automation, which will
        be reported on separately. We performed our work in accordance with generally
        accepted government auditing standards. Major contributors to this report were
        Frank Deffer, Sondra McCauley, Barbara Ferris, and Vandana Patel. Comments or
        questions about the report can be directed to Mr. Deffer at defferf@state.gov or at
        (703) 284-2715.




24 .   OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews – March 2002

                                             UNCLASSIFIED
                                                           Appendix A
                                   United States Department of State

                                   Washington, D.C. 20520


                                           FEB 12 2002


INFORMATION MEMORANDUM

UNCLASSIFIED

TO         OIG- Clark Kent Ervin

FROM:

SUBJECT:   Memorandum Report IT-A-02-20 "Streamlined
           Processes and Better Automation Can Improve
           Munitions License Reviews, February 2002"


     I appreciate the opportunity to comment on the subject
report. PM believes that the OIG audit team has done an
excellent job in assessing and framing numerous and
complicated issues. I regard the OIG audit team's work as
conferring both potential benefits upon the PM Bureau and
immediate obligations on me as Assistant Secretary.

     In particular, I am attentive to the report's finding
that expansion of PM's electronic licensing function
requires timely action to ensure consistency with the
intent of a number of Office of Management and Budget
directives and several laws, among them the Clinger-Cohen
Act; the Government Paperwork Elimination Act of 2001; and
the Paperwork Reduction Act of 1995. Moreover, I
appreciate and accept in full the report's Recommendations,
noting only that several remedial activities are under way
even since the period of OIG's review, as will be noted
below. Beyond the Recommendations, much of the report's
analysis will serve as a basis for PM's consideration of
still further measures to strengthen the timeliness and
overall efficiency of the licensing system.

     With the preceding as the PM Bureau's summary response
to the OIG report, I am grateful for the opportunity to
highlight ongoing steps we believe to be responsive to the
report's findings and consistent with its Recommendations.
Where we have differences in perspective from the OIG
report, these are noted below.


                         UNCLASSIFIED
                        UNCLASSIFIED

                            -2 -
Steps Underway to Redress Problems Cited in the Report
Licensing Process Re-engineering

     Although no public announcement has yet been made, PM
is in the early stage of an intensive process, initiated
and directed by me, to consider process improvements aimed
at optimal efficiency, speed, standardization, and ease of
management of the State Department's munitions licensing
process. I have carefully reviewed all studies, reports
and memoranda submitted to the Administration to recommend
process improvements in defense trade licensing. From that
review I have developed a notional package of possible
process improvement initiatives, currently numbering around
50. This package is being reviewed internally at PM. I
anticipate that some items may come off the list while
others will be added.

     As this initial review is concluded, I intend to
inform the Secretary of State of my proposal to conduct a
comprehensive process review; subject to his guidance, I
would intend to enlist the assistance of some industry
experts via the Defense Trade Advisory Group (DTAG), PM's
federal advisory committee for these matters, and involve
counterparts at the Departments of Defense and Commerce,
where appropriate, as well as the National Security Council
Staff in an effort to refine and implement process reforms
of many kinds. Indeed, the above entities are all aware of
these plans and have pledged their cooperation with PM.

     A range of issues spotlighted by OIG, such as
interagency management of the licensing function, end-use
monitoring for exported defense items and technology, the
policy referral process for license applications, the
commodity jurisdiction process, and timeliness as it
relates to industrial competitiveness, to name several key
aspects of our operation, will all be encompassed in the
process re-engineering initiative now under development.

     I also wish to underscore that PM's Office of Defense
Trade Controls (DTC) takes very seriously its compliance and
enforcement functions. DTC's operational relationship with
the U.S. Customs Service, its overseas Blue Lantern
end-use monitoring program, and particularly its
responsibility to retain and produce information for use in
administrative or criminal proceedings, impose special
process and information management requirements.


                        UNCLASSIFIED
                         UNCLASSIFIED

                             -3-

PM/DTC Information Technology Upgrade

   On a related front, there is already intense interest
in the Administration, the Congress, and the U.S. defense
industry in the upgrading of DTC's computer system. I am
personally engaged in this effort as well because of the
important national security and foreign policy
considerations intrinsic to export licensing and
compliance/enforcement activities. I also take this
project to be PM's primary means of fulfilling the State
Department's interests in promoting e-Government. I am
pleased to report that a great deal of constructive
activity has occurred, even subsequent to the conclusion of
the OIG inquiries, that moves substantially in the
direction of fulfilling the Recommendations of the OIG
audit team:
•   PM has now entered into intensive IT dialogue and
    activity with DoD, to include several meetings with
    USXPORTS technical experts and expanded use of a T-l line
    to transmit to DoD both structured data and unstructured
    back-up materials for cases in support of Operation
    Enduring Freedom.

•   DTC and VC/VQ (the office responsible for IT matters for
    the four bureaus reporting to the Under Secretary for
    Arms Control and International Security Affairs) have
    begun to implement a detailed workplan for day-to-day IT
    support of the defense trade controls function, as well
    as to address Government procurement and security issues

•   DTC has now expanded its discussions about information
    security, including detailed discussions about systems
    architecture and electronic authentication with the
    Department's PKI Program Office.

•   The Department's CIO, Mr. Fernando Burbano, has
    assigned personnel from IRM operations staff to work
    closely with DTC in a number of areas (e.g., process
    analysis and modeling, systems analysis and
    development, network communications, systems
    certification and accreditation requirements. and
    acquisition. PM is committed to carrying out this
    upgrade in full coordination and compliance with the
    Department's management.



                         UNCLASSIFIED
                         UNCLASSIFIED

                             -4 -

•   A "proof of concept” contract has provided PM with a
    conceptual model of a fully electronic licensing system.

   I believe we have firm basis for systems development
this year. We propose to focus on information security and
risk management, database conversion (from Microsoft
Access), and the technical difficulties in handling
voluminous hardcopy documentation of those munitions export
cases that are referred to DoD and other offices/agencies.
Using the electronic licensing "proof of concept" as a
point of reference, we are already refining a "Concept of
Operations."

   The basic near-term achievement of fully electronic
licensing, in a manner readily interoperable with the other
government agencies involved in defense trade licensing,
will in no way prejudice the ongoing process re-engineering
initiative. At this time, our plans include business
process enhancements for munitions export licensing review,
some of which would be incorporated in our IT development.
In the very near future, we anticipate proceeding with a
contract to conduct a six-month electronic licensing pilot
program (beta testing involving several defense firms, to
include database conversion. PM will work closely with the
private sector, IRM, and other offices and agencies to
which munitions cases are referred.

   Further information technology upgrades and management
tools that are deemed desirable on the basis of the process
re-engineering initiative will be contemplated as future
enhancements, building on the electronic foundation being
established at this time. Thus, PM fully intends that
these initiatives fulfill the requirements of the Clinger-
Cohen Act.

     In sum, PM intends to fulfill the OIG recommendations
through a refinement and enhancement of defense trade
control processes, operational guidelines, management tools
and collaborative IT enhancement. We will be pleased to
keep the OIG team apprised of our actions and will welcome
any and all feedback on our progress as part of the follow-
up to the subject report. Indeed. I invite, and will
appreciate, the continued close involvement of the GIG as
these initiatives proceed in the weeks and months ahead.

                         UNCLASSIFIED
                                            UNCLASSIFIED




OIG Report No. IT-A-02-02, Streamlined Processes and Better Automation Can Improve Munitions License Reviews –March 2002   25 .

                                            UNCLASSIFIED
